No. 20-8
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DEUTSCHE BANK TRUST COMPANY AMERICAS, ET AL.,
PETITIONERS
v.
ROBERT R. MCCORMICK FOUNDATION, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES AS AMICUS CURIAE, via e-mail and first-class
mail, postage prepaid, this 12th day of March 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 5,794 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
March 12, 2021

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 12, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0008
DEUTSCHE BANK TRUST COMPANY AMERICAS,
ET AL.
ROBERT R. MCCORMICK FOUNDATION, ET AL

PHILIP DAVID ANKER
WILMER CUTLER PICKERING HALE AND
DORR LLP
7 WORLD TRADE CENTER, 250
GREENWICH STREET
NEW YORK, NY 10007
212-230-8890
PHILIP.ANKER@WILMERHALE.COM
PETER VINCENT MARCHETTI
THURGOOD MARSHALL SCHOOL OF LAW
3100 CLEBURNE STREET
HUSTON, TX 77004
617-270-3143
PETER_MARCHETTI@HOTMAIL.COM
LAWRENCE SAUL ROBBINS
ROBBINS, RUSSELL, ENGLERT, ORSECK,
UNTEREINER & SAUBER LLP
2000 K STREET, N.W.
WASHINGTON, DC 20006
202-775-4501
IROBBINS@ROBBINSRUSSELL.COM
CHUN T. WRIGHT
LAW OFFICES OF CHUN T. WRIGHT PLLC
1775 I STREET NW
SUITE 1150
WASHINGTON, DC 20006
919-360-7718
CHUN@LAW.DUKE.EDU

ERNEST A YOUNG
3208 FOX TERRANCE DR.
APEX , NC 27502
919-360-7718
YOUNG@LAW.DUKE.EDU

